No. 20-1089
IN THE

Supreme Court of the United States
CHEVRON CORP., ET AL., PETITIONERS
v.
CITY OF OAKLAND, ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIEF OF RESPONDENTS IN OPPOSITION TO
PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Victor M. Sher, counsel of record
for respondents and a member in good standing of the bar of this Court, certify that
the Brief of Respondents in Opposition to Petition for a Writ of Certiorari in the
above-captioned case contains 8,958 words, excluding the parts of the opposition that
are exempted by Rule 33.1(d).
Dated: May 10, 2021

/s/ Victor M. Sher
Victor M. Sher
Counsel of Record
SHER EDLING LLP
100 Montgomery St., Ste. 1410
San Francisco, CA 94104
(628) 231-2500
vic@sheredling.com
Counsel for Respondents

